                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A05110076



         We were informed1 that a proposal2 contained text copied without attribution from a review3 of a
         previous submi~sion.~We compared the review and proposal and found that about a paragraph of
         text from the review appeared verbatim in the initial paragraphs of the proposal's Project


         In response to our inquiry, Subject 1, (the PI of the proposal) provided a variety of explanations
         for his actions including: copying of review text without attribution was perfectly ordinary and in
         no way represented a departure from commonly accepted practice. Subject 1 believed the words
         were so tightly ordered that they resembled the reviewer's text. He also said that within his
         academic community reviewers are only provided general acknowledgement if they provided
         very detailed discussion and many lengthy and detailed suggestions for specific changes for a


         We consulted an expert within the community who said that copying ofmore than a sentence needed
         an acknowledgment phrase like "a reviewer noted" or "an anonymous source observed." We
         concurred with the expert's view and also concluded that Subject 1's response did not fully disclose
         his reliance on the reviewer's text. We warned Subject 1 to observe more caution in his use of text
         authored by others. Continued sloppy attribution practices could lead to further and more serious
         allegations of plagiarism. We reminded him that NSF expects that proposals submitted to NSF
         should reflect "strict adherence to the rules of proper scholarship and attribution [and] [aluthors other
         than the PI (or any co-PI) should be named and ackno~led~ed."~

         This case is closed.




NSF OIG Form 2 (11/02)
